No. 20-569
Ia the Supreme Court of the Usited States

ELIM ROMANIAN PENTECOSTAL CHURCH and
LoGOs BaPTIST MINISTRIES, Petitioners,

Vv.

JAY ROBERT PRITZKER,
in his official capacity as Governor of the State of Illinois, Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Seventh Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that Respondent’s NOTICE OF
SUPPLEMENTAL AUTHORITY contains 333 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 8, 2021.

Ane Cba7 v6
ane Elinor Notz
100 West Randolph Street
Chicago, Illinois 60601
(812) 814-5376
jnotz@atg.state.il.us
Counsel for Respondent
